                                                                 Issue Date
                                                                          September 20, 2007
                                                                 Audit Report Number
                                                                          2007-CH-1013




TO:         Thomas Marshall, Director of Public Housing Hub, 5DPH



FROM:       Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The Butler Metropolitan Housing Authority, Hamilton, Ohio, Lacked Adequate
           Controls over Its Homeownership Proceeds

                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Butler Metropolitan Housing Authority’s (Authority) 5(h)
             homeownership (5(h)) and its Turnkey III Homeownership Opportunity (Turnkey
             III) programs (programs). We selected the Authority based on a risk analysis
             showing that it may have improperly used the programs’ funds. Our objectives
             were to determine whether the Authority properly accounted for and used its
             programs’ proceeds in accordance with the U.S. Department of Housing and
             Urban Development’s (HUD) requirements.

 What We Found

             The Authority failed to properly account for nearly $400,000 of the programs’
             proceeds for more than five years because it commingled the proceeds with funds in
             its retained earnings account. The $400,000 consisted of more than $166,000 in
             5(h) sales proceeds from four properties sold between May 1997 and October
             1998 and nearly $232,000 in Turnkey III proceeds. It also did not use the 5(h)
             proceeds in a timely manner. As a result, the programs’ proceeds were not used to
             assist low- and moderate-income families.

             We informed the Authority’s executive director, the director of HUD’s Cleveland
             Office of Public Housing, and the director of HUD’s Columbus Office of Fair
           Housing and Equal Opportunity of minor deficiencies through a memorandum,
           dated September 18, 2007.
What We Recommend

           We recommend that the director of HUD’s Cleveland Office of Public Housing
           require the Authority to transfer from its retained earnings account to the
           applicable accounts the 5(h) and Turnkey III proceeds plus earned interest, submit
           a proposal(s) for HUD’s approval on how the programs’ proceeds will be used,
           and implement procedures and controls to ensure that the proceeds are used to
           support the development of affordable housing for low- and moderate-income
           families in accordance with HUD’s requirements.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.

Auditee’s Response


           We provided our discussion draft audit report to the Authority’s interim executive
           director, its board chairman, and HUD’s staff during the audit. We held an exit
           conference with the Authority’s interim executive director on August 27, 2007.
           We asked the interim executive director to provide written comments on our
           discussion draft audit report by September 14, 2007.

           The interim executive director provided written comments, dated September 12,
           2007, and agreed with our recommendations. The complete text of the auditee’s
           response, along with our evaluation of that response, can be found in appendix B
           of this report except for 12 pages of documentation that was not necessary for
           understanding the Authority’s comments. A complete copy of the Authority’s
           comments plus the documentation was provided to the director of HUD’s
           Cleveland Office of Public Housing.




                                            2
                           TABLE OF CONTENTS

Background and Objectives                                                      4

Results of Audit
      Finding: The Authority Lacked Adequate Controls over Its Homeownership
               Proceeds                                                        5

Scope and Methodology                                                          7

Internal Controls                                                              8

Appendixes
   A. Schedule of Funds to Be Put to Better Use                                10
   B. Auditee Comments and OIG’s Evaluation                                    11
   C. Federal Requirements and the Authority’s 5(h) Homeownership Plan         14




                                           3
                     BACKGROUND AND OBJECTIVES

The Butler Metropolitan Housing Authority (Authority) was established in 1939 under Section
3735.27 of the Ohio Revised Code to provide low- and moderate-income persons with safe and
sanitary housing. The Authority is governed by a five-member board of commissioners. The
commissioners are appointed to five-year staggered terms. The Authority’s executive director,
appointed by the board of commissioners, is responsible for coordinating established policy and
carrying out the Authority’s day-to-day operations. As of June 11, 2007, the Authority owned
and/or managed 1,158 Public Housing units and had 996 Section 8 Housing Choice Voucher
program units.

The Section 5(h) homeownership program offers housing authorities a flexible way to sell Public
Housing units to low-income families. The 5(h) program helps low-income families purchase
homes through an arrangement that benefits both the buyer and the public housing authority that
sells the unit. It gives the buyer access to an affordable homeownership opportunity and to the
many tangible and intangible advantages homeownership brings. Homeownership can be an
important part of self-sufficiency for low-income families, providing a way of building wealth as
well as increasing self-esteem and security. The program was authorized by Section 5(h) of the
United States Housing Act of 1937.

Our objectives were to determine whether the Authority properly accounted for and used its 5(h)
homeownership (5(h)) and its Turnkey III Homeownership Opportunity (Turnkey III) programs’
(programs) proceeds in accordance with the U.S. Department of Housing and Urban
Development’s (HUD) requirements.




                                                4
                                 RESULTS OF AUDIT

Finding: The Authority Lacked Adequate Controls over Its
                      Homeownership Proceeds
The Authority failed to maintain a separate identity for its $166,002 of 5(h) homeownership
program sales proceeds and did not use the proceeds in a timely fashion. It also failed to properly
use $231,928 in Turnkey III (Turnkey III) program construction loan proceeds. This condition
occurred because the proceeds were commingled in the Authority’s retained earnings account,
and their identity was lost and not used as required. As a result, $397,930 in program proceeds
was not used to further homeownership activities for low- and moderate-income families.



 Sales Proceeds from 5(h)
 Homeownership Properties

               The Authority received $166,002 in sales proceeds from four 5(h)
               homeownership program properties sold between May 1997 and October 1998. It
               maintained these proceeds in a separate account until June 30, 2002, when the
               proceeds were transferred to the Authority’s retained earnings account. The
               transfer occurred due to a misinterpretation of the requirements concerning
               converting the Authority’s annual financial statements from HUD’s basis of
               accounting to the generally accepted accounting principles method. The
               Authority’s interim executive director said the 5(h) sale proceeds were never
               spent because after they were commingled in the retained earnings account, they
               were not tracked as separate funds but lost and forgotten in the retained earnings
               funds. The Authority’s financial statements showed that $89,543 in interest had
               been earned on these proceeds as of June 30, 2007.

               The Authority failed to maintain a separate identity for its 5(h) sales proceeds and
               did not obligate the sales proceeds in a timely manner as required by its 5(h)
               implementing agreement. These proceeds were not used for housing programs in
               support of the development of affordable housing for low- and moderate-income
               families as required by the Authority’s 5(h) homeownership plan.

 Turnkey III Homeownership
 Opportunity Program Proceeds


               The Authority received $633,337 in construction loan proceeds from 22 Turnkey
               III properties sold between May 1986 and January 1995. It received HUD’s
               approval to use $526,409 of the proceeds, leaving a balance of $106,928
               ($633,337 minus $526,409). The Authority did not expend $125,000 of the
               proceeds approved for use. The $125,000 was to be used to implement a
               Homeownership and Opportunity for People Everywhere (HOPE) I program for

                                                 5
             single-family ownership possibilities. Instead, the Authority used a $127,000
             grant it received from HUD to implement the HOPE program. As a result, the
             Authority did not use $231,928 ($106,928 plus $125,000) of the Turnkey III
             construction loan proceeds. The Authority’s financial statements showed that
             $165,165 in interest had been earned on these proceeds as of June 30, 2007.

             The Authority maintained the unused Turnkey III construction loan proceeds in a
             separate account until June 30, 2002, when they were transferred to the
             Authority’s retained earnings account. The Authority’s interim executive director
             said these proceeds were never spent because after they became commingled in
             the retained earnings account, they were not tracked as separate funds but lost and
             forgotten in the retained earnings funds. There was more than $4 million in the
             Authority’s retained earnings account as of June 30, 2007.

Conclusion

             The Authority failed to maintain records that identified the source and application of
             its homeownership proceeds in such a manner as to allow HUD to determine that all
             proceeds were expended for each specific program as required by its annual
             contributions contract and its 5(h) implementing agreement with HUD. As a result,
             $652,638 ($397,930 ($166,002 of 5(h) plus $231,928 in Turnkey III) in program
             proceeds and $254,708 ($89,543 plus $165,165) in earned interest) was not used
             to further homeownership activities for low- and moderate-income families.

Recommendations

             We recommend that the director of HUD’s Cleveland Office of Public Housing
             require the Authority to

             1A.    Transfer from its retained earnings account to an appropriate account
                    $255,545 ($166,002 in sales proceeds and $89,543 in earned interest) in
                    related proceeds and earned interest from the four 5(h) homeownership
                    plan properties sold.

             1B.    Transfer from its retained earnings account to an appropriate account
                    $397,093 ($231,928 in sales proceeds and $165,165 in earned interest) in
                    related proceeds and earned interest from the Turnkey III construction
                    loan.

             1C.    Submit a proposal(s) for HUD’s approval on how the 5(h) and Turnkey III
                    homeownership proceeds will be used.

             1D.    Implement procedures and controls to ensure that the 5(h) and Turnkey III
                    homeownership proceeds are used to support the development of
                    affordable housing for low- and moderate-income households and in
                    accordance with its applicable agreement(s) and HUD’s requirements.

                                               6
                        SCOPE AND METHODOLOGY

To accomplish our objectives, we reviewed

              •   Applicable laws; regulations; HUD’s program requirements at 24 CFR [Code of
                  Federal Regulations] Part 906, HUD Guidebook 7510.1, HUD Public and
                  Indian Housing Notice 91-28; and the Authority’s 5(h) homeownership plan and
                  implementing agreement with HUD; annual audited financial statements for
                  2004, 2005, and 2006; annual contributions contract with HUD; board of
                  commissioners’ resolutions; general ledgers; balance sheets; homeownership
                  files; and organizational chart.

              •   HUD’s files for the Authority.

We also interviewed the Authority’s employees and HUD staff.
We performed our onsite audit work between April and July 2007 at the Authority’s offices
located at 4110 Hamilton Middletown Road, Hamilton, Ohio. The audit covered the period July
1, 2005, through March 31, 2006, but was expanded when necessary to include other periods.

We performed our audit in accordance with generally accepted government auditing standards.




                                               7
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

              We determined the following internal controls were relevant to our objectives:

              •       Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet an organization’s objectives.




                                                8
Significant Weakness


           Based on our review, we believe the following item is a significant weakness:

           •   The Authority lacked adequate procedures and controls over its 5(h) and
               Turnkey III homeownership proceeds (see finding).




                                            9
                                  APPENDIXES

Appendix A

     SCHEDULE OF FUNDS TO BE PUT TO BETTER USE

                           Recommendation        Funds to be put
                               number             to better use 3/
                                  1A                   $255,545
                                  1B                   $397,093
                                 Total                 $652,638


1/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In theses instances, if the Authority implements our
     recommendations, it will use the 5(h) and Turnkey III programs’ proceeds to assist low-
     and moderate-income families.




                                            10
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1




                         11
Ref to OIG Evaluation   Auditee Comments




                         12
                         OIG Evaluation of Auditee Comments

Comment 1   We commend the Authority for recognizing the importance of using its funds for
            future housing opportunities. The Authority did not provide adequate
            documentation to show that its 5(h) funds were placed in its own separate account
            prior to our audit. However, the Authority should provide documentation to HUD
            to verify that the funds were placed in separate accounts.




                                           13
Appendix C

   FEDERAL REQUIREMENTS AND THE AUTHORITY’S 5(h)
              HOMEOWNERSHIP PLAN

The annual contributions contract between HUD and the Authority, section 9 (C), states that the
Authority shall maintain records that identify the source and application of funds in such a
manner as to allow HUD to determine that all funds are and have been expended in accordance
with each specific program and requirement. Section 15(A) of the contract requires the
Authority to maintain complete and accurate books of account for the projects of the Authority in
such a manner as to permit the preparation of statements and reports in accordance with HUD
requirements and to permit timely and effective audits.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 906.17 state that the public housing
authority shall be responsible for the maintenance of records (including sales and financial
records) for all activities incident to implementation of the HUD-approved homeownership plan.
The receipt, retention, and use of the sales proceeds shall be covered in the regular independent
audits of the public housing authority’s public housing operations.

The Authority’s 5(h) implementing agreement, section 3.3, states that the Authority shall
obligate sales proceeds in a timely fashion in accordance with the project implementation
schedule set forth in the plan. Section 4 of the agreement states that the Authority will establish
and maintain a separate account for any project or program to be funded with sales proceeds
under this agreement. Such sales proceeds may be commingled with funds contributed to the
project or program from other sources, so long as the authority maintains the separate identity of
the sales proceeds covered by this agreement.

HUD’s Accounting Guidebook 7510.1, issued January 1996, part IV, account 2854, states that
funds in account 2854, Replacement Reserve - Proceeds from Sale of Dwelling, retained by the
housing authority can be transferred with HUD approval to the operating reserve or replacement
reserve of another authority-owned program within the same annual contributions contract or in
another annual contributions contract. In addition, funds in this account may, in accordance with
terms and conditions of use approved by HUD, be used for lower income housing purposes not
covered by a specific annual contributions contract. Also, the housing authority must maintain
adequate records to track receipt, retention, and expenditure of sales proceeds in sufficient detail
to allow monitoring of compliance with the HUD-approved homeownership plan; to prepare any
reports by HUD, and to meet its audit responsibilities.

The Authority’s homeownership plan to sell Public Housing units under the 5(h) regulations
states that sales proceeds not used for administration of the program and repair of the units to be
sold will be used for other housing programs in support of the development of affordable
housing for low- and moderate-income families. This includes the development of housing for
those individuals through the use of other available methods of development (e.g., tax credit
programs) as well as various resident initiative activities. Affordable housing programs offered
could include housing development through HOME Investment Partnerships Program funds for
tax-credit housing. Funds may be used for land acquisition, land banking, and infrastructure in


                                                14
support of development of subdivisions or multifamily housing tracts, either for rental or
homeownership.

The Authority’s annual contributions contract, amendment number 12, section IX(3), requires
that the books of account and records of the Authority be maintained to meet the requirements of
the homebuyers ownership opportunity agreement as well as the other provisions of this contract
and in such a manner as will at all times show the operating receipts, operating expenditures,
reserves, residual receipts, and other required accounts for the project separate and distinct from
all other projects under this contract.

HUD’s Public and Indian Housing Notice 91-28 states that public housing authorities have two
alternatives for use of proceeds from the sale of homeownership units: (a) an authority may use
the proceeds from the sale of homeownership units for any existing programmatic use related to
operations pursuant to an annual contributions contract from which the proceeds from the sale of
the homeownership units originated, or (b) an authority may use proceeds from the sale of
homeownership units for any lower income housing use approved by HUD, including a locally
sponsored and directed homeownership program.




                                                15
